                        Federal Register / Vol. 64, No. 7 / Tuesday, January 12, 1999 / Notices                                      1813

IV. Key to the OPO Codes                       • The accuracy of our estimate of the    DEPARTMENT OF HEALTH AND
   The key to the acronyms used in the      information collection burden.              HUMAN SERVICES
listings to identify OPOs and their            • The quality, utility, and clarity of
addresses is as follows:                                                                Office of Inspector General
                                            the information to be collected.
DCTC—Washington Regional                       • Recommendations to minimize the        Publication of OIG Special Fraud Alert
   Transplant Consortium, 8110 Gateway      information collection burden on the        on Physician Liability for Certifications
   Road, Suite 101 W, Falls Church, VA      affected public, including automated        in the Provision of Medical Equipment
   22042                                    collection techniques.                      and Supplies and Home Health
MAOB—New England Organ Bank, One                                                        Services
   Gateway Center, Newton, MA 02158            Therefore, we are soliciting public
MIOP—Organ Procurement Agency of            comment on the information collection       AGENCY: Office of Inspector General
   Michigan, 2203 Platt Road, Ann           requirements for the issue described        (OIG), HHS.
   Arbor, MI 48104                          below.                                      ACTION: Notice
MNOP—Lifesource, Upper Midwest                 Designation of one OPO for each
   Organ Procurement Organization Inc.,                                                 SUMMARY:    This Federal Register notice
                                            service area:                               sets forth a recently issued OIG Special
   2550 University Avenue West, Suite
   315 South, St. Paul, MN 55114–1904          Section 486.316(e) states the            Fraud Alert concerning physician
MSOP—Mississippi Organ Recovery             requirements for a Medicare or              liability for certifications in the
   Agency, Inc., 12 River Bend Place,       Medicaid participating hospital to          provision of medical equipment and
   Suite B, Jackson, MS 39208               request a waiver permitting the hospital    supplies and home health services. For
NYAP—OPO of Albany Medical                  to have an agreement with a designated      the most part, OIG Special Fraud Alerts
   College, 47 Scotland Avenue, AP8,        OPO other than the OPO designated for       address national trends in health care
   Albany, NY 12208                         the service area in which the hospital is   fraud, including potential violations of
NYFL—Finger Lakes Donor Recovery            located. However, the burden associated     the Medicare anti-kickback statute. This
   Network, Corporate Woods of              with these requirements is currently        Special Fraud Alert, issued to the health
   Brighton, Building 120, Suite 180,       approved under OMB 0938–0688,               care provider community and now
   Rochester, NY 14623                      HCFA–R–13, Conditions of Coverage for       being reprinted in this issue of the
NYWN—Upstate New York Transplant                                                        Federal Register, specifically highlights
                                            Organ Procurement Organizations, with
   Services, Inc., 165 Genesee Street,                                                  physicians’ responsibilities in making
   Suite 103, Buffalo, NY 14209             an expiration date of November 30,
                                            1999.                                       certifications for home health services
OHLC—Life Connection of Ohio, 1545                                                      and durable medical equipment, and the
   Holland Road, Suite C, Maumee, OH           If you comment on any of these           legal significance of the certifications.
   43537                                    information collection and record           FOR FURTHER INFORMATION CONTACT: Joel
OHLP—Lifeline of Ohio, 770 Kinnear          keeping requirements, please mail           J. Schaer, Office of Counsel to the
   Road, Suite 200, Columbus, OH 43212      copies directly to the following:
TNMS—Mid-South Transplant                                                               Inspector General, (202) 619–0089.
   Foundation, 956 Court Avenue,            Health Care Financing Administration,       SUPPLEMENTARY INFORMATION:
   Memphis, TN 38163                          Office of Information Services,           I. Background
VAOP—Virginia Organ Procurement               Security and Standards Groups,
   Agency, 1527 Huguenot Road,                Division of HCFA Enterprise                  The Office of Inspector General (OIG)
   Midlothian, VA 23113                       Standards, Attention: Louis Blank,        issues Special Fraud Alerts based on
WISE—Wisconsin Donor Network,                 HCFA–1062–NC, Room N2–14–26,              information it obtains concerning
   Froedtert Memorial Lutheran Hospital                                                 particular fraudulent or abusive
                                              7500 Security Boulevard, Baltimore,
   9200 West Wisconsin Avenue,                                                          practices within the health care
                                              MD 21244–1850, and
   Milwaukee, WI 53226                                                                  industry.
WIUW—University of Wisconsin OPO,           Office of Information and Regulatory           Special Fraud Alerts are intended for
   University of Wisconsin Hospital and       Affairs, Office of Management and         widespread dissemination to the health
   Clinics, 600 Highland Avenue,              Budget, Attention: Allison Eydt,          care provider community, as well as
   Madison, WI 53792                          HCFA Desk Officer, Room 10235,            those charged with administering the
                                              New Executive Office Building,            Medicare and Medicaid programs. To
V. Collection of Information                  Washington, DC 20503.                     date, the OIG has published in the
Requirements                                                                            Federal Register the texts of 9
                                              Authority: Section 1138 of the Social
  Under the Paperwork Reduction Act         Security Act (42 U.S.C. 1320b–8).
                                                                                        previously-issued Special Fraud Alerts.1
of 1995, we are required to provide 60­                                                 It is the OIG’s intention to publish
                                            (Catalog of Federal Domestic Assistance
day notice in the Federal Register and                                                  future Special Fraud Alerts in this same
                                            Program No. 93.773, Medicare—Hospital
solicit public comment before a                                                         manner as a regular part of our
                                            Insurance; Program No. 93.774 Medicare—
collection of information requirement is                                                dissemination of such information.2
                                            Supplementary Medical Insurance, and
submitted to the Office of Management                                                      In an effort to promote voluntary
                                            Program No. 93.778, Medical Assistance
and Budget (OMB) for review and                                                         compliance in the health care industry
                                            Program)
approval. In order to fairly evaluate                                                   and assist providers in their compliance
                                              Dated: January 5, 1999.                   efforts, the OIG has developed a Special
whether an information collection
requirement should be approved by           Robert A. Berenson,                         Fraud Alert, set forth below, that
OMB, section 3506(c)(2)(A) of the           Director, Center for Health Plans and       addresses potential problem areas with
Paperwork Reduction Act of 1995             Providers, Health Care Financing
requires that we solicit comment on the     Administration.                               1 See December 19, 1994 (59 FR 65372); August

                                                                                        10, 1995 (60 FR 40847); June 17, 1996 (61 FR
following issues:                           [FR Doc. 99–630 Filed 1–11–99; 8:45 am]
                                                                                        30623); and April 24, 1998 (63 FR 20415).
  • The need for the information            BILLING CODE 4120–01–P                        2 All OIG Special Fraud Alerts are also available
collection and its usefulness in carrying                                               on the internet at the OIG web site at http://
out the proper functions of our agency.                                                 www.dhhs.gov/progorg/oig/frdalrt/index.htm.
1814                    Federal Register / Vol. 64, No. 7 / Tuesday, January 12, 1999 / Notices

regard to physician certification in the     disregard as to the truth of the             discharge their responsibility to assess
provision of medical equipment and           information being submitted. While a         their patients’ conditions and need for
supplies and home health services.           physician’s signature on a false or          home health care. Similarly, the OIG has
Among other things, this newly-issued        misleading certification made through        found numerous examples of physicians
Special Fraud Alert addresses: (1) the       mistake, simple negligence, or               who have ordered DME or signed CMNs
importance of physician certification for    inadvertence will not result in personal     for DME without reviewing the medical
Medicare; (2) how improper physician         liability, the physician may unwittingly     necessity for the item or even knowing
certifications foster fraud; and (3)         be facilitating the perpetration of fraud    the patient.
potential consequences for knowingly         on Medicare by suppliers or providers.
signing a false or misleading                Accordingly, we urge all physicians to       Physician Certification for Home Health
certification, or signing with reckless      review and familiarize themselves with       Services
disregard for the truth. A reprint of this   the information in this Fraud Alert. If a       Medicare will pay a Medicare­
Special Fraud Alert follows.                 physician has any questions as to the        certified home health agency for home
                                             application of these requirements to         health care provided under a
II. Special Fraud Alert: Physician
                                             specific facts, the physician should         physician’s plan of care to a patient
Liability for Certifications in the
                                             contact the appropriate Medicare Fiscal      confined to the home. Covered services
Provision of Medical Equipment and
                                             Intermediary or Carrier.                     may include skilled nursing services,
Supplies and Home Health Services
                                                                                          home health aide services, physical and
(January 1999)                               The Importance of Physician
                                                                                          occupational therapy and speech
   The Office of Inspector General (OIG)     Certification for Medicare
                                                                                          language pathology, medical social
was established at the Department of            The Medicare program only pays for        services, medical supplies (other than
Health and Human Services by Congress        health care services that are medically      drugs and biologicals), and DME.
in 1976 to identify and eliminate fraud,     necessary. In determining what services         As a condition for payment, Medicare
waste, and abuse in the Department’s         are medically necessary, Medicare            requires a patient’s treating physician to
programs and to promote efficiency and       primarily relies on the professional         certify initially and recertify at least
economy in departmental operations.          judgment of the beneficiary’s treating       every 62 days (2 months) that:
The OIG carries out this mission             physician, since he or she knows the            • The patient is confined to the home;
through a nationwide program of audits,      patient’s history and makes critical            • The individual needs or needed (i)
inspections, and investigations.             decisions, such as admitting the patient     intermittent skilled nursing care; (ii)
   To reduce fraud and abuse in the          to the hospital; ordering tests, drugs,      speech or physical therapy or speech­
Federal health care programs, including      and treatments; and determining the          language pathology services; or (iii)
Medicare and Medicaid, the OIG               length of treatment. In other words, the     occupational therapy or a continued
actively investigates fraudulent schemes     physician has a key role in determining      need for occupational therapy (payment
that obtain money from these programs        both the medical need for, and               for occupational therapy will be made
and, when appropriate, issues Special        utilization of, many health care services,   only upon an initial certification that
Fraud Alerts that identify segments of       including those furnished and billed by      includes care under (i) or (ii) or a
the health care industry that are            other providers and suppliers.               recertification where the initial
particularly vulnerable to abuse. Copies        Congress has conditioned payment for      certification included care under (i) or
of all OIG Special Fraud Alerts are          many Medicare items and services on a        (ii));
available on the internet at http://         certification signed by a physician             • A plan of care has been established
www.dhhs.gov/progorg/oig/frdalrt/            attesting that the item or service is        and periodically reviewed by the
index.htm.                                   medically necessary. For example,            physician; and
   We are issuing this Fraud Alert           physicians are routinely required to            • The services are (were) furnished
because physicians may not appreciate        certify to the medical necessity for any     while the patient is (was) under the care
the legal and programmatic significance      service for which they submit bills to       of a physician.
of certifications they make in               the Medicare program.                           The physician must order the home
connection with the ordering of certain         Physicians also are involved in           health services, either orally or in
items and services for their Medicare        attesting to medical necessity when          writing, prior to the services being
patients. While the OIG believes that the    ordering services or supplies that must      furnished. The physician certification
actual incidence of physicians’              be billed and provided by an                 must be obtained at the time the plan of
intentionally submitting false or            independent supplier or provider.            treatment is established or as soon
misleading certifications of medical         Medicare requires physicians to certify      thereafter as possible. The physician
necessity for durable medical                to the medical necessity for many of         certification must be signed and dated
equipment or home health care is             these items and services through             prior to the submission of the claim to
relatively infrequent, physician laxity in   prescriptions, orders, or, in certain        Medicare. If a physician has any
reviewing and completing these               specific circumstances, Certificates of      questions as to the application of these
certifications contributes to fraudulent     Medical Necessity (CMNs). These              requirements to specific facts, the
and abusive practices by unscrupulous        documentation requirements                   physician should contact the
suppliers and home health providers.         substantiate that the physician has          appropriate Medicare Fiscal
We urge physicians and their staff to        reviewed the patient’s condition and         Intermediary or Carrier.
report any suspicious activity in            has determined that services or supplies
connection with the solicitation or          are medically necessary.                     Physician Orders and Certificates of
completion of certifications to the OIG.        Two areas where the documentation         Medical Necessity for Durable Medical
   Physicians should also be aware that      of medical necessity by physician            Equipment, Prosthetics, Orthotics, and
they are subject to substantial criminal,    certification plays a key role are (i)       Supplies for Home Use
civil, and administrative penalties if       home health services and (ii) durable          DME is equipment that can withstand
they sign a certification knowing that       medical equipment (DME). Through             repeated use, is primarily used for a
the information relating to medical          various OIG audits, we have discovered       medical purpose, and is not generally
necessity is false, or with reckless         that physicians sometimes fail to            used in the absence of illness or injury.
                        Federal Register / Vol. 64, No. 7 / Tuesday, January 12, 1999 / Notices                               1815

Examples include hospital beds,                • Section C contains a description of     investigations of fraud in the provision
wheelchairs, and oxygen delivery            the equipment and its cost. Section C is     of home health services and medical
systems. Medicare will cover medical        completed by the supplier.                   equipment and supplies:
supplies that are necessary for the            • Section D is the treating physician’s       A physician knowingly signs a
effective use of DME, as well as surgical   attestation and signature, which certifies   number of forms provided by a home
dressings, catheters, and ostomy bags.      that the physician has reviewed sections     health agency that falsely represent that
However, Medicare will only cover           A, B, and C of the CMN and that the          skilled nursing services are medically
DME and supplies that have been             information in section B is true,            necessary in order to qualify the patient
ordered or prescribed by a physician.       accurate, and complete. Section D must       for home health services.
The order or prescription must be           be signed by the treating physician.             A physician certifies that a patient is
personally signed and dated by the          Signature stamps and date stamps are         confined to the home and qualifies for
patient’s treating physician.               not acceptable.                              home health services, even though the
   DME suppliers that submit bills to          By signing the CMN, the physician         patient tells the physician that her only
Medicare are required to maintain the       represents that:                             restrictions are due to arthritis in her
physician’s original written order or          • He or she is the patient’s treating     hands, and she has no restrictions on
prescription in their files. The order or   physician and the information regarding      her routine activities, such as grocery
prescription must include:                  the physician’s address and unique           shopping.
   • The beneficiary’s name and full        physician identification number (UPIN)           At the prompting of a DME supplier,
address;                                    is correct;                                  a physician signs a stack of blank CMNs
   • The physician’s signature;                 The entire CMN, including the            for transcutaneous electrical nerve
   • The date the physician signed the      sections filled out by the supplier, was     stimulators (TENS) units. The CMNs are
prescription or order;                      completed prior to the physician’s           later completed with false information
   • A description of the items needed;     signature; and                               in support of fraudulent claims for the
   • The start date of the order (if            The information in section B relating
                                                                                         equipment. The false information
appropriate); and                           to medical necessity is true, accurate,
   the diagnosis (if required by Medicare                                                purports to show that the physician
                                            and complete to the best of the
program policies) and a realistic                                                        ordered and certified to the medical
                                            physician’s knowledge.
estimate of the total length of time the                                                 necessity for the TENS units for which
                                            Improper Physician Certifications Foster     the supplier has submitted claims.
equipment will be needed (in months or
                                            Fraud                                            A physician signs CMNs for
years).
   For certain items or supplies,             Unscrupulous suppliers and                 respiratory medical equipment falsely
including supplies provided on a            providers may steer physicians into          representing that the equipment was
periodic basis and drugs, additional        signing or authorizing improper              medically necessary.
information may be required. For            certifications of medical necessity. In          A physician signs CMNs for
supplies provided on a periodic basis,      some instances, the certification forms      wheelchairs and hospital beds without
appropriate information on the quantity     or statements are completed by DME           seeing the patients, then falsifies his
used, the frequency of change, and the      suppliers or home health agencies and        medical charts to indicate that he
duration of need should be included. If     presented to the physician, who then         treated them.
drugs are included in the order, the        signs the forms without verifying the            A physician accepts anywhere from
dosage, frequency of administration,        actual need for the items or services. In    $50 to $400 from a DME supplier for
and, if applicable, the duration of         many cases, the physician may obtain         each prescription he signs for oxygen
infusion and concentration should be        no personal benefit when signing these       concentrators and nebulizers.
included.                                   unverified orders and is only                Potential Consequences for Unlawful
   Medicare further requires claims for     accommodating the supplier or                Acts
payment for certain kinds of DME to be      provider. While a physician’s signature
accompanied by a CMN signed by a            on a false or misleading certification          A physician is not personally liable
treating physician (unless the DME is       made through mistake, simple                 for erroneous claims due to mistakes,
prescribed as part of a plan of care for    negligence, or inadvertence will not         inadvertence, or simple negligence.
home health services). When a CMN is        result in personal liability, the            However, knowingly signing a false or
required, the provider or supplier must     physician may unwittingly be                 misleading certification or signing with
keep the CMN containing the treating        facilitating the perpetration of fraud on    reckless disregard for the truth can lead
physician’s original signature and date     Medicare by suppliers or providers.          to serious criminal, civil, and
on file.                                    When the physician knows the                 administrative penalties including:
   Generally, a CMN has four sections:      information is false or acts with reckless       Criminal prosecution;
   • Section A contains general             disregard as to the truth of the                 Fines as high as $10,000 per false
information on the patient, supplier,       statement, such physician risks              claim plus treble damages; or
and physician. Section A may be             criminal, civil, and administrative             administrative sanctions including:
completed by the supplier.                  penalties.                                   exclusion from participation in Federal
   • Section B contains the medical           Sometimes, a physician may receive         health care programs, withholding or
necessity justification for DME. This       compensation in exchange for his or her      recovery of payments, and loss of
cannot be filled out by the supplier.       signature. Compensation can take the         license or disciplinary actions by state
Section B must be completed by the          form of cash payments, free goods, or        regulatory agencies.
physician, a non-physician clinician        any other thing of value. Such cases            Physicians may violate these laws
involved in the care of the patient, or a   may trigger additional criminal and civil    when, for example:
physician employee. If the physician        penalties under the anti-kickback                They sign a certification as a
did not personally complete section B,      statute.                                     ‘‘courtesy’’ to a patient, service
the name of the person who did                The following are examples of              provider, or DME supplier when they
complete section B and his or her title     inappropriate certifications uncovered       have not first made a determination of
and employer must be specified.             by the OIG in the course of its              medical necessity;
1816                                      Federal Register / Vol. 64, No. 7 / Tuesday, January 12, 1999 / Notices

    They knowingly or recklessly sign a                                      or suppliers, physicians may be liable                                       companies engaging in any of the
false or misleading certification that                                       for making false or misleading                                               activities described above, contact any
causes a false claim to be submitted to                                      certifications.                                                              of the regional offices of the Office of
a Federal health care program; or                                                                                                                         Investigations of the Office of Inspector
    They receive any financial benefit                                       What To Do If You Have Information
                                                                             About Fraud and Abuse Against                                                General, U.S. Department of Health and
for signing the certification (including                                                                                                                  Human Services, at the following
free or reduced rent, patient referrals,                                     Medicare or Medicaid Programs
                                                                                                                                                          locations:
supplies, equipment, or free labor).                                           If you have information about
   Even if they do not receive any                                           physicians, home health agencies, or
financial or other benefit from providers                                    medical equipment and supply

                                                                          Field offices                                                                                     States served      Telephone

Boston ................................................................................................................................................................    MA, VT, NH,       617–565–2664
                                                                                                                                                                              ME, RI, CT
New York ............................................................................................................................................................      NY, NJ, PR, VI    212–264–1691
Philadelphia ........................................................................................................................................................      PA, MD, DE,       215–861–4586
                                                                                                                                                                              WV, VA, DC
Atlanta ................................................................................................................................................................   GA, KY, NC,       404–562–7603
                                                                                                                                                                              SC, FL, TN,
                                                                                                                                                                              AL, MS
Chicago ..............................................................................................................................................................     IL, MN, WI, MI,   312–353–2740
                                                                                                                                                                              IN, OH, IA,
                                                                                                                                                                              MO
Dallas .................................................................................................................................................................   TX, NM, OK,       214–767–8406
                                                                                                                                                                              AR, LA, CO,
                                                                                                                                                                              UT, WY, MT,
                                                                                                                                                                              ND, SD, NE,
                                                                                                                                                                              KS
Los Angeles .......................................................................................................................................................        AZ, NV, So. CA    714–246–8302
San Francisco ....................................................................................................................................................         No. CA, AK, HI    415–437–7961
                                                                                                                                                                              OR, ID, WA



  To Report Suspected Fraud, Call or                                         effectiveness of various approaches to                                       the Panel’s mission. Individuals
Write: 1–800-HHS-TIPS (1–800–447–                                            teaching children how to read and                                            desiring an opportunity to speak before
8477), Department of Health and Human                                        report on the best ways to apply these                                       the Panel should address their requests
Services, Office of Inspector General,                                       findings in classrooms and at home. Its                                      to F. William Dommel, Jr., J.D.,
P.O. Box 23489, L’Enfant Plaza Station,                                      members include prominent reading                                            Executive Director, National Reading
Washington, D.C. 20026–3489.                                                 researchers, teachers, child                                                 Panel, c/o Ms. Amy Andryszak and
  Dated: January 6, 1999.                                                    development experts, leaders in                                              either mail them to the Widmeyer-Baker
June Gibbs Brown,                                                            elementary and higher education, and                                         Group, 1875 Connecticut Avenue, NW,
Inspector General.                                                           parents. The Chair of the Panel is Dr.                                       Suite 800, Washington, DC 20009, or e­
                                                                             Donald N. Langenberg, Chancellor of the                                      mail them to amya@twbg.com, or fax
[FR Doc. 99–631 Filed 1–11–99; 8:45 am]
                                                                             University System of Maryland.                                               them to 202–667–0902. Requests for
BILLING CODE 4150–04–P
                                                                                The Panel will build on the recently                                      addressing the Panel should be received
                                                                             announced findings presented by the                                          by January 15, 1999. Panel business
DEPARTMENT OF HEALTH AND                                                     National Research Council’s Committee                                        permitting, each public speaker will be
HUMAN SERVICES                                                               on the Prevention of Reading                                                 allowed five minutes to present his or
                                                                             Difficulties in Young Children. Based on
                                                                                                                                                          her views. In the event of a large
National Institutes of Health                                                a review of the literature, the Panel will:
                                                                                                                                                          number of public speakers, the Panel
                                                                             determine the readiness for application
National Institute of Child Health and                                       in the classroom of the results of these                                     Chair retains the option to further limit
Human Development; Meeting of the                                            research studies; identify appropriate                                       the presentation time allowed to each.
National Reading Panel                                                       means to rapidly disseminate this                                            Although the time permitted for oral
                                                                             information to facilitate effective                                          presentations will be brief, the full text
  Notice is hereby given of the fifth                                                                                                                     of all written comments submitted to
Washington area meeting of the                                               reading instruction in the schools; and
                                                                             identify gaps in the knowledge base for                                      the Panel will be made available to the
National Reading Panel. The meeting
                                                                             reading instruction and the best ways to                                     Panel members for consideration.
will be held on Thursday, January 21,
1999, from 12:30 to 6:00 PM at the                                           close these gaps.                                                               For further information contact Ms.
Holiday Inn Georgetown, 2101                                                    The agenda for this meeting will                                          Amy Andryszak at 202–667–0901.
Wisconsin Avenue, NW, Washington,                                            include discussing the                                                       Individuals who plan to attend and
DC 20007. The entire meeting will be                                         recommendations made by the science                                          need special assistance, such as sign
open to the public.                                                          members of the National Reading Panel,                                       language interpretation or other
  The National Reading Panel was                                             who have been developing a proposed                                          reasonable accommodations, should
requested by Congress and created by                                         methodology to select and evaluate                                           contact Ms. Amy Andryszak by January
the Director of the National Institute of                                    research studies. A period of time will                                      15, 1999.
Child Health and Human Development                                           be set aside at approximately 4:00 PM
in consultation with the Secretary of                                        for members of the public to address the
Education. The Panel will study the                                          Panel and express their view regarding
